IN THE COURT OF CRIMINAL APPEAL% COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
STATE OF OKLAHOMA
JUL 1 7 2020
GEORGE A. CHRISTIAN,

)
)

Petitioner,

)

JOHN D. HADDEN
CLERK

)
)

v.

)

No. PC-2020-372
PC-2020-377

)

THE STATE OF OKLAHOMA,

)
)

Respondent.

)

ORDER DISMISSING DUPLICATE FILING AND DIRECTING
COURT CLERK TO RETURN PETITIONER’S DOCUMENTS AND
BARRING PETITIONER FROM FILING ANY FURTHER
REQUESTS FOR POST-CONVICTION RELIEF IN OKLAHOMA
COUNTY DISTRICT COURT CASE NO. CF-2011-1583 AND
ISSUING DIRECTIVE TO CLERK TO NOTIFY COURT
ADMINISTRATOR OF FRIVOLOUS ACTION

On June 4, 2020, Petitioner Christian, pro se, filed a Petition
in Error attempting to appeal to this Court from an order denying
his most recent application for post-conviction relief in Oklahoma
County Case No. CF-2011-1583.

The matter was assigned this

Court’s Case No. PC-2020-372. This is Christian’s third attempt to
challenge his conviction in the District Court of Oklahoma County
utilizing the Post-Conviction Appeals process.

On June 5, 2020

Christian filed a subsequent Petition in Error, attempting to appeal

PC-2020-372, Christian v. State
PC-2020-377, Christian v. State

the denial of his request for post-conviction relief in Oklahoma
County Case No. CF-2011-1583.

That matter was assigned this

Court’s Case No. PC-2020-377.
Christian’s post-conviction filing assigned this Court’s Case
No. PC-2020-377 is an exact duplicate of the June 4, 2020 filing
which was assigned this Court’s Case No. PC-2020-372.

The

duplicate filing assigned Case No. PC-2020-377 is DISMISSED.
We now address Christian’s filing assigned this Court’s Case
No. PC-2020-372.
On two prior occasions this Court has addressed Christian’s
challenges to his conviction and advised Christian that he has
exhausted his remedies in this matter.

See, Christian v. State, PC-

2013-583 (October 17, 2013) and Christian v. State, PC-2016-425
(July 8, 2016). Petitioner’s most recent filing is a direct violation of
this Court’s order barring him from attempting to collaterally attack
his conviction in Oklahoma County Case No. CF-2011-1583.
IT IS THE ORDER OF THIS COURT that Petitioner has
EXHAUSTED his State remedies regarding the issues raised in his
various

applications for post-conviction relief,

2

challenging his

PC-2020-372, Christian v. State
PC-2020-377, Christian v. State

conviction

in

Oklahoma

County

Case

No.

CF-2011-1583.

Subsequent application attempting to collaterally appeal Petitioner’s
conviction in this matter is BARRED, and the Clerk of this Court is
directed to accept NO FURTHER FILINGS from Petitioner in
Oklahoma County Case No. CF-2011-1583 without prepayment of
filing fees.

See, Rule 5.5, Rules of the Oklahoma Court of Criminal

Appeals, Title 22, Ch.18, App. (2020).

The Clerk of this Court is

DIRECTED to return Petitioner’s filings to him.
IT IS THE FURTHER ORDER OF THIS COURT that Petitioner
is found to be a prisoner who, while incarcerated, brought this
action, and that such action is frivolous, malicious, and fails to
present any claim for which relief might be granted in this Court.
The Clerk of this Court is directed to forward a copy of this Order to
the Director of the Administrative Office of the Courts for such
processing as the Director may deem appropriate in connection with
the registiy maintained by her under 57 O.S.2011, § 566.2.
Issuance of this order concludes these proceedings before this
Court. The Clerk of this Court is directed to transmit a copy of this
order to the Court Clerk of Oklahoma County; the District Court of

3

PC-2020-372, Christian v. State
PC-2020-377, Christian v. State

Oklahoma County, the Honorable Natalie Mai, District Judge;
Petitioner and counsel of record.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF THIS COURT
this

/

, 2020.

day of
c

DAVID B. LEWIS, Presiding Ju

DANA kUEHN, Vice Presiding Judge
<

£RY IL LUMPKIN, Judge

ROBERT L. HUDSON, Judge

SCOTT ROWLAND, Judge

ATTEST:

Clerk
PA

4

filed in district court
OKLAHOMA COUNTY
IN THE DISTRICT COURT OF OKLAHOMA COUNTY
STATE OF OKLAHOMA
GEORGE A. CHRISTIAN, JR.,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.

MAY - 5 2020
RICK WARREN

)
)
)
)
)
)
)
)
)

46

COURT CLERK

Case No. CF-2011-1583

ORDER DISMISSING THIRD APPLICATION FOR POST-CONVICTION RELIEF
This matter comes on before the undersigned Judge of the District Court for
consideration of Petitioner’s third Application for Post-Conviction Relief and the

State’s

Motion to Dismiss' the same. The Court, being fully advised, finds that the State’s motion to
dismiss should be and is hereby granted.
On October 21, 2011, Petitioner was sentenced after jury trial to concurrent terms of
thirty-six (36) years imprisonment for Manslaughter in the First Degree, AFCF (2
twenty-five (25) years imprisonment for Pointing a Firearm at Another, AFCF (2

or more),
or more),

and twenty (20) years imprisonment for Possession of a Firearm After Felony Conviction ,
AFCF (2 or more). The Court of Criminal Appeals affirmed Petitioner’s Judgment and
Sentence on direct appeal. Christian v. State, No. F-2011-957 (Okl. Cr. March 22, 2013) (not
for publication).
Petitioner, pro se, has filed two prior applications for post-conviction relief. His
original Application for Post-Conviction Relief was denied by the District Court
2013, and the Court of Criminal Appeals affirmed. Christian

on June 6,

v. State, No. PC-2013-583 (Okl.

Cr. October 17,2013). The Court of Criminal Appeals further issued the following
IS THE ORDER OF THIS COURT that Petitioner has EXHAUSTED his Stat

order: “IT
e remedies

IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that Petitioner s
third Application for Post-Conviction Relief is DISMISSED and all other relief requested are
hereby denied.
Dated this

.

XjL

-

*

//

-^5

day of fr~f

, 2020.

CERTIFIED
COPY
AS FILED OF RECORD
IN DIRT- .• -•

NATALIE MAI
DISTRICT JUDGE

MAY “ 5 2029
RICK WAhfi;:M
_____

CGUriT CLERK

Oklahoma County

CERTIFICATE OF SERVICE
, 2020,1 mailed a certified copy of the
above and foregoing order, with postage thereon fully prepaid, to:
George Christian, Jr., DOC # 276900
Lexington Correctional Center
P.O. Box 260
Lexington, OK 73051
PETITIONER, PRO SE
and that a true and correct copy of the above and foregoing order was hand-delivered to:
Jennifer M. Hinsperger, Assistant District Attorney
Oklahoma County District Attorney’s Office
COUNSEL FOR RESPONDENT

Deputy Court Clerk

3

k

